U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   Office of the Secretary



Internal Controls Over Premium-Class
       Travel Need to Be Strengthened



     Audit Report No. BSD-18154-7-0001/ March 2007




                            Public Release




       Office of Audits, Business and Science Division
                                             ",~f.1tf OF eo..
                                         ~        ~
                                       i.          X
                                                                "-",

                                                                       ~.   UNITED STATES DEPARTMENT OF COMMERCE
                                                                            The Inspector General
                                        '"                             iJ
                                        \                        If         Washington, D.C. 20230
                                             0 ~-4TEs   ~ 01




    Mi\R   3 0 2007



MEMORANDUM FOR:	              Otto Wolff
                              Chief Financial Officer and
                              Assistant Secretary for Administration
                                                                                                      ,
FROM:

SUBJECT:	                     Internal contro s v Premium-Class Travel
                              Need to Be Stre t ned
                                                        ~
                              Audit Report N. SD-18154-7-0001

Attached is the final report on our audit of premium-class air travel at the Department of
Commerce. The objective of our review was to determine whether the Department properly
authorizes and justifies premium-class travel according to its own internal policies and the
requirements of the Federal Travel Regulation (FTR). We found numerous instances of
noncompliance with the FTR regarding the approval of premium-class travel, as well as
instances in which the premium-class travel was not properly justified. This is primarily because
of poor internal controls and outdated Departmental policy guidance. To address these issues, we
made recommendations designed to improve the Department's controls over premium-class
travel.

We appreciate the level of attention and careful consideration that you and your staff took to
address our findings and recommendations. We have noted that the Department has generally
agreed with the findings and recommendations and has already begun to take action to address
the problems. A copy of the Department's entire response is included as an attachment to this
report. Our findings are discussed in full beginning on page 4. Our recommendations appear on
page 7.

Introduction

We conducted this audit because of the potential for problems associated with premium-class
travel and findings reported by the Government Accountability Office (GAO) following its audit
of travel at another federal agency. First-class and business-class (i.e., premium-class) air travel
is significantly more costly than coach service, and its use must therefore be properly controlled.
The General Services Administration's Federal Travel Regulation requires that travelers fly
coach for official domestic and international air travel, unless they are specifically authorized by
their agency to fly either first or business-class.
U.S. Department of Commerce                                                       Final Report BSD-18154-7-0001
Office of Inspector General                                                                       March 2007

The FTR1 allows agencies to approve first-class airline travel (1) when no coach or business-
class accommodations are reasonably available or (2) when such an upgrade is needed to
accommodate a documented disability or other special need, exceptional security circumstances,
or the agency’s mission. Agencies are likewise allowed to approve business-class air travel2
when, among other things, it is necessary to accommodate a disability or the agency’s mission,
coach is unavailable, or the travel is international and involves flight time in excess of 14 hours.
The FTR also states that employees on official government travel must exercise the same care in
incurring expenses that a prudent individual would exercise when traveling on personal business.

Commerce’s Travel Program

Within Commerce, the Office of Administrative Services’ Travel Management Division (Office
of the Secretary) has primary responsibility for administering the Department’s travel program. It
is responsible for developing and disseminating Department-wide travel policy, as well as giving
employees advice and guidance on travel policy and regulations and on proper preparation of
travel forms. As part of these responsibilities, the division must ensure that employees who fly
premium class are properly authorized to do so.

The DOC Travel Handbook,3 supplements the FTR with Commerce-specific travel requirements.
It contains official Commerce travel policy, related guidance for Commerce employees, and
internal controls for administering travel. The sections that cover premium-class air travel were
issued in May 1990 and September 1992, and require, among other things, that requests for such
accommodations be made on Form CD-334, Request for Approval of Extra Fare Air
Accommodations, and approved by the Chief Financial Officer (CFO) and Assistant Secretary
for Administration (ASA). The CD-334 must include specific justifications for each leg of the
trip for which premium-class travel is requested. Form CD-29, Travel Order, and the CD-334
must be authorized before premium-class airline tickets are issued by the federal travel
management center4 that services the agency or by the carrier. The handbook specifies that the
existence of a handicap or physical impairment requiring premium-class accommodations must
be recertified every 2 years.

In October 1993, an internal memorandum from the Acting CFO/ASA to Secretarial officers and
heads of operating units modified the Department’s policy regarding premium-class air
accommodations as follows:

    1.	 Secretarial officers received authority to approve premium-class air accommodations for
        their employees and other individuals traveling on behalf of the Department (this evolved
        into a listing by bureau of names and positions of individuals who are authorized to
        approve premium-class travel).


1
  FTR §301-10.123
2
  FTR §301-10.124
3
  The Commerce Travel Regulation was issued as the Commerce Travel Handbook under authority of Department
Administrative Order 204-1. Although the Handbook is still in effect, a separate draft interim CTR was issued in
November 2004; however, it does not address premium-class travel.
4
  The Federal Travel Management Center for DOC headquarters is SATO and it operates under contract.



                                                        2

U.S. Department of Commerce                                             Final Report BSD-18154-7-0001
Office of Inspector General                                                             March 2007

      2.	 The CFO/ASA retained responsibility for approving premium-class air accommodations
          for all Office of the Secretary employees, Secretarial officers, and heads of operating
          units that report directly to the Secretary.
      3.	 Minimum standards for authorizing and approving premium-class air accommodations
          were established.

The memorandum stated that the DOC Travel Handbook would be revised to reflect these
changes and that staff from the CFO/ASA’s office would periodically review the travel program
to ensure adequate controls were in place and standards were being followed. However,
Handbook sections pertaining to premium travel were last updated in 1992—14 years ago and
prior to the issuance of the CFO/ASA’s memorandum.

Objectives, Scope, and Methodology

We audited Commerce officials’ business-class airline travel occurring during FY 2005 through
May of FY 2006 and first-class airline travel occurring during FY 2005 to determine whether
these accommodations had been properly authorized and justified, per FTR requirements and the
Department’s internal policies. Unfortunately, we were unable to obtain a reliable computer-
generated listing of the Department’s total premium-class travel, so we used a listing of business-
class air accommodations that was manually generated by input from all Commerce bureaus.
The listing contained 630 business-class trips, taken in FY 2005 through May 2006, totaling
more than $2.8 million. It is important to note that because the listing was created as a result of a
data call rather than from a reliable computerized system used to routinely capture all pertinent
data, we were unable to determine whether all business-class travel taken during the period was
included. We selected a random sample of 63 trips from the manually prepared listing. To review
the Department’s use of first-class travel accommodations, we examined the Department’s FY05
annual report to the Office of Management and Budget on first-class travel in FY 2005, which
reported 12 trips. We included for review 11 first-class trips taken in FY 2005 from the OMB
report and excluded one trip that was incorrectly reported twice.

We reviewed applicable federal laws, regulations, guidance, policies, and procedures.
Specifically, we examined the relevant premium-class travel content of GSA’s Federal Travel
Regulation and DOC Travel Handbook (the Commerce Travel Regulation), as well as GAO’s
Standards for Internal Control in the Federal Government;5 and OMB Circular A-123,
Management Accountability and Control.6

We performed our fieldwork from May to September 2006 at Commerce headquarters in
Washington, DC. We conducted this review in accordance with generally accepted government
auditing standards and under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.



5
    Issued in November 1999.
6
    Revised June 21, 1995.




                                               3

U.S. Department of Commerce                                          Final Report BSD-18154-7-0001
Office of Inspector General                                                          March 2007

FINDING AND RECOMMENDATIONS

The Department Needs to Consolidate and Clarify Guidance Concerning Premium-Class
Travel and Improve Implementation of Internal Controls over Such Travel

Based on our examination of premium-class travel documentation, we concluded that the
Department has often failed to comply with FTR requirements or its own travel handbook. We
also found that existing internal controls designed to ensure such compliance were not
adequately implemented. Because of these weaknesses, management cannot be confident that
limitations on the use of premium-class travel are being observed.

1.	 Premium-class travel policy needs to be updated, consolidated, and improved

The DOC Travel Handbook supplements the requirements of the FTR, establishing, for example,
who within the agency must authorize premium-class air travel. It names the CFO/ASA as the
authorizing official. As noted earlier, a 1993 memo issued by the then-Acting CFO/ASA (see
Attachment I) instituted new practices related to the authorization of premium-class travel
designed to reduce management barriers. In this memo, the Acting CFO/ASA delegated the
authority to Secretarial officers to authorize and approve premium-class air accommodations for
their employees and for other individuals traveling on behalf of the Department. While the
bureaus have adopted this practice, the handbook has yet to be revised accordingly.

 In 2002, the Department’s Director of Executive Budgeting and Assistance Management
conducted an internal review of the approval process for premium-class travel. A memorandum
report was issued that identified much to be concerned about and included the following findings
and recommendations to the CFO/ASA:

   1.	 The policy and procedures relating to premium-class air accommodations are not
       adequately addressed in the DOC travel regulations and there is procedural confusion in
       some areas. The policy and procedures should be clarified.
   2.	 The policy delegates authority to Secretarial officers to approve premium-class air
       accommodations and authorizes redelegation of that authority; however, the Department
       did not have a listing of bureau officials who were redelegated approval authority. Bureau
       and operating units should annually report on officials who have delegated authority to
       approve premium-class travel.
   3.	 The Department has not regularly provided SATO (see footnote 4) with current listings
       of individuals authorized to approve premium-class air accommodations. The Department
       should provide the travel management center with a current list of CD-334 approving
       officials and instruct the center to check the CD-334 (form required to be used for
       approving premium travel) accordingly.

The recommendations were never implemented and, based on our findings, it appears that the
problems identified in 2002 remain. Moreover, we found that there are inconsistencies in
implementation of the premium-class travel approval process across the Department’s bureaus.
For example, one of the travel management officials we spoke with told us that in some of the
regional travel reservations/processing centers, CD-334s are not required. Likewise, we



                                             4

U.S. Department of Commerce                                              Final Report BSD-18154-7-0001
Office of Inspector General                                                              March 2007

reviewed documentation in which a traveler stated that the travel management center told her
that since nothing other than the business-class accommodations she requested was available,
she did not need an authorized CD-334. This is contrary to requirements in both the handbook
and the FTR. The handbook states, “Requests [for premium-class travel] shall include specific
justifications for each leg of the trip for which premium-class accommodations are requested.”7
The FTR states that premium-class travel may be used when no coach accommodations are
available; but it must be approved by the agency.8

For these problems to be resolved, it is imperative that the existing sources of guidance relating
to premium-class travel be consolidated. It is also critical that a list of individuals authorized to
approve use of premium-class travel (identified by name and position) be maintained. In light of
inevitable job turnover, the list should be automated and updated regularly. In addition, as noted
in the objectives, scope, and methodology section of this report, when we began this job we were
unable to find a reliable, computer-generated listing of the Department’s premium travel use. In
order to help the Department ensure the appropriate use of premium-class travel, and in light of
specific reporting requirements related to use of first-class travel, the Department should develop
procedures to identify all occurrences of premium-class travel.

Internal controls are not being properly implemented

Currently, travelers can make reservations for premium-class air travel at a travel management
center before obtaining an approved CD-334. However, the center cannot issue the premium-
class airline ticket until it receives the approved form. The center must verify that the signature
on the form matches that of an official authorized to approve premium-class accommodations,
making the center a primary control point over the Department’s use of premium-class travel.
(Each center maintains a list of approved officials; however, they are not routinely updated.)
Every month, the center submits copies of these CD-334s to Commerce’s Travel Management
Office. As an additional control, this office is supposed to again verify that each CD-334 is
properly authorized in order to maintain accountability for all premium-class travel. However,
many of the signatures on the CD-334s we reviewed were illegible. Because the form did not
require the printed name and title of the authorizing official, it would have been difficult for the
center and the Travel Management Office to verify that the appropriate person signed the
approval form.

For our total sample of 74 trips (63 business-class and 11 first-class trips), the Travel
Management Office could provide us with CD-334s for only four of the requested premium-class
trips. As it was necessary to review the CD-334s, travel authorizations, and the travel vouchers
in order to validate proper authorization of premium-class travel, we contacted travel voucher
processing offices and individual bureaus where we were able to obtain some of the missing
forms.




7
    Chapter 301-3.3(d)(2)
8
    FTR §301-10.123 and §301-10.124



                                                5

U.S. Department of Commerce                                                       Final Report BSD-18154-7-0001
Office of Inspector General                                                                       March 2007



                  Table 1. RESULTS OF ANALYSIS OF OIG SAMPLE
            Number of Instances                         Finding
                   14           CD-334s   were  produced  and properly authorized
                                No CD-334, travel authorization or travel voucher
                    6           was provided
                                The authorizing signature on the CD-334 was either
                   16           not legible or the signator was not on the list of
                                those authorized to approve premium-class travel
                   19           There was no CD-334 attached to the travel voucher
                                CD-334 was provided; however, premium-class
                    2           travel was not properly justified
                                No CD-334 required as economy class was used or
                    6           travel was cancelled
                                Not reviewed as travel was processed by travel
                   11           processing centers outside the Washington
                                metropolitan area9
                   74           TOTAL

As noted, the Travel Management Office was unable to produce any of the required
documentation for six trips, including the travel authorization, travel voucher, and the CD-334.

With regard to the 16 CD-334s with illegible or unauthorized signatures, we attempted to match
these signatures (typed names and titles were not included on the forms) against the most current
list of approving officials available—which had been updated in November 2005 (six months
before we initiated our fieldwork). The Travel Office has since reported that it now plans to
update the listing of approval officials quarterly and post it to the Commerce web site.

The 19 travel vouchers that lacked CD-334s did not comply with the FTR, which requires that
“evidence of your necessary travel authorizations including any necessary special
authorizations…” be provided with the travel claim.10 For the Department, one such special
authorization is the CD-334. Representatives from voucher-processing offices admitted that they
do not attempt to determine whether premium-class travel is appropriate and do not require CD
334s because they do not actually issue reimbursement directly to the traveler for airline tickets
as SATO bills separately for these costs. While we recognize that those offices are not
responsible for reimbursing airline tickets, if they required the CD-334 to approve travel
involving the use of premium-class fares, it would serve as an additional check on the use of
such travel.




9
  We only reviewed sampled trips for which travel vouchers were processed by travel processing centers located in
the Washington Metropolitan area.
10
   FTR §301.52-4



                                                      6

U.S. Department of Commerce                                           Final Report BSD-18154-7-0001
Office of Inspector General                                                           March 2007

The two trips with improperly justified CD-334s involved circumstances where the traveler
sought to use premium-class travel because the trip was in excess of 14 hours. In one instance,
the flight was actually less than 14 hours and did not qualify. On the second trip, the return
flight was properly justified; however, two intermediary business-class flights taken on separate
days of the trip were not included on the CD-334 and did not meet the circumstances for the
higher fare. We also found that the Department’s required OMB annual first-class travel report
for FY 2005 was inaccurate. Of the 12 trips included on the report, we found that one first class
trip had actually been cancelled and one trip was incorrectly listed twice.

It is the Travel Management Division’s responsibility to ensure that internal controls, including
those for proper accountability and authorization of premium-class travel, are clearly defined,
and consistently and properly implemented within all Commerce bureaus and field operations.
GAO’s Standards for Internal Control in the Federal Government and OMB Circular A-123,
Management Accountability and Control, require that agencies continually assess, evaluate, and
strengthen their internal controls to assure accountability and proper stewardship of federal
resources. In this case, while basic controls exist, our sample clearly shows that they are not
being consistently or properly implemented. Therefore, it is important for the Department to
modify the DOC Travel Handbook to require bureaus to regularly review premium-class travel
usage by their employees. Additionally, all employees should be reminded, as appropriate, of
the circumstances under which use of premium-class travel is permitted, the limitations that
apply, and the authorizations that are required.


Recommendations

The Chief Financial Officer and Assistant Secretary for Administration should take the necessary
actions to

   1.	 Make sure the DOC Travel Handbook is updated to consolidate current travel policies
       and to comply with FTR requirements.
   2.	 Ensure that requirements relating to the use of premium-class travel are consistently
       complied with across all bureaus and regional operations.
   3.	 Develop procedures to better identify
         • all occurrences of premium-class travel, and
         • all first-class fares so that DOC can prepare and submit complete and accurate first-
           class travel reports to OMB.
   4.	 Require bureaus to regularly review premium-class travel undertaken by their employees,
       determining among other things whether travel management centers are adhering to
       pertinent FTR and Commerce regulations, and report the review results to senior bureau
       management and the TMD Contracting Officer’s Representative.
   5.	 Ensure that the Department routinely provides the travel management centers with
       current listings of individuals authorized to approve premium-class air accommodations
       and instructs the center to verify the signatures on the CD-334s against that list.




                                              7

U.S. Department of Commerce                                           Final Report BSD-18154-7-0001
Office of Inspector General                                                           March 2007

   6.	 Remind travelers and supervisors/managers, as appropriate, about the circumstances
       under which premium-class travel is permitted, the limitations that apply, and
       authorizations that are required.
   7.	 Ensure that premium-class travel is approved by only those individuals who are 

       authorized. 

   8.	 Ensure that employees who use premium-class travel submit the required CD-334 with
       their travel vouchers and that processing officials maintain this documentation.

Department’s Response

Department officials agreed that internal controls over the use of premium-class travel need to be
strengthened and stated that they have been working to enhance those controls. They also
concurred with seven of the recommendations and suggested changes to one. Some of the most
significant enhancements that the Department reported it has made to date include: (1) prepared
draft revisions to the Travel Handbook to reflect the provisions of the October 23, 1993
memorandum from the Acting Chief Financial Officer and Assistant Secretary for
Administration regarding premium-class air travel, and to address findings that resulted from the
2002 internal control review; (2) compiled an updated list of authorizing officials for premium-
class travel, provided the list to the Travel Management Centers, and implemented a quarterly
updating requirement; and (3) revised the CD-334, “Request for Approval of Extra Fare
Accommodations,” and CD-29, “Travel Order,” to include fields for the printed names and titles
of authorizing and approving officials to help facilitate the Travel Management Centers’
verification of proper authorization. Department officials also stated that they will continue to
review premium-class travel quarterly and to communicate Departmental policy to approving
officials and travelers through the revised Travel Handbook, broadcast e-mail messages, and
other methods such as the website maintained by the Office of Administrative Services, Travel
Bulletins, and orientation materials provided to new employees.

The Department’s response included suggested word changes to the body of the report for clarity
regarding updating the listing of individuals authorized to approve the use of premium-class
travel. It also provided suggested rewording for recommendation four to require that the bureaus
conduct regular reviews of premium-travel usage and report the results to the TMD Contracting
Officer’s Representative who will interface with the contractor for the travel management centers
when they fail to adhere to pertinent regulations.

OIG Comments

We are pleased by the Department’s prompt actions regarding this report’s recommendations.
We have modified the report regarding the list of individuals authorized to approve the use of
premium-class travel by acknowledging that the listing has been created but needs to be
maintained and updated regularly. We modified recommendation four to require the bureaus to
report the results of premium-travel usage reviews to both senior bureau management and the
Contracting Officer’s Representative (COR) who resides in the Department’s Travel
Management Division. This will allow the COR to work with the contractor when the travel
management centers fail to adhere to regulations, and will keep senior management informed of
any problems within their bureau.



                                              8

U.S. Department of Commerce                                            Final Report BSD-18154-7-0001
Office of Inspector General                                                            March 2007



                                         - - - - - - -

In accordance with DAO 213-5, please provide us with the audit action plan for our review and
concurrence addressing all of the report recommendations within 60 days of this memorandum.
Should you need to discuss the contents of this report or the audit action plan, please call me at
(202) 482-4661, or John Seeba, Assistant Inspector General for Auditing, at (202) 482-1934.

Attachments

cc: 	John J. Phelan III
    Director of Office of Management and Organization




                                               9

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007

                                                Attachment I




                              10 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              11 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              12 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007

                                                  Attachment II





                              13 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              14 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              15 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              16 

U.S. Department of Commerce          Final Report BSD-18154-7-0001
Office of Inspector General                          March 2007




                              17 

